No. 20-427
IN THE

POLK COUNTY,
v.

Petitioner,

J.K.J. and M.J.J.,

Respondents.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Seventh Circuit
BRIEF IN OPPOSITION
Sarah Grady
Steve Art
Megan Pierce
LOEVY & LOEVY
311 N. Aberdeen Street,
3rd Floor
Chicago, IL 60607
Adam Francois Watkins
Stephanie Bradley
WATKINS BRADLEY LLP
228 Park Avenue South,
#14905
New York, NY 10003

Tom Weidner

Counsel of Record

Lida Bannink
ECKBERG LAMMERS, P.C.
1809 Northwestern
Avenue
Stillwater, MN 55082
(651) 351-2119
tweidner@
eckberglammers.com

QUESTION PRESENTED
Whether this Court should review a jury’s verdict,
affirmed by an en banc court of appeals, holding a
county liable for damages based on evidence (a) that
the county deliberately decided not to implement
readily available policies for reporting, detecting, and
thereby preventing sexual assaults by guards in its jail
and (b) that the county’s deliberate indifference
enabled a guard to engage in three years of repeated
assaults against multiple victims.

ii
TABLE OF CONTENTS
QUESTION PRESENTED ........................................... i
TABLE OF AUTHORITIES ....................................... iv
INTRODUCTION ........................................................ 1
STATEMENT OF THE CASE..................................... 2
A. Factual background .......................................... 2
B. District court proceedings ................................ 8
C. Seventh Circuit proceedings .......................... 12
REASONS FOR DENYING THE WRIT................... 15
I.

Petitioner’s purported split does not exist. ........ 16
A. The Seventh Circuit’s position on failureto-train-the-perpetrator
claims
involving a “single incident” is identical
to the position taken by other circuits ......... 17
B. The decision here does not conflict with
the cases cited in the petition because
the basis for liability was not failure to
train the perpetrator..................................... 20

II. This case is an inappropriate vehicle for
answering the question presented in the
petition ................................................................ 23
III. The Seventh Circuit’s decision is correct. .......... 26
A. The jury reasonably found that in the
way the County operated its jail, the
County was deliberately indifferent to
respondents’ constitutional rights................ 27

iii
B. The jury was entitled to find that the
County’s deliberate indifference caused
respondents’ injuries ..................................... 30
C. The Seventh Circuit’s decision does not
break new ground, open municipalities
to respondeat superior liability, or
otherwise disturb the balance between
federal, state, and local governments .......... 32
CONCLUSION .......................................................... 35

iv
TABLE OF AUTHORITIES
Cases

Alexander v. City of South Bend,

433 F.3d 550 (7th Cir. 2006) ............................... 19

Bryan County v. Brown,

520 U.S. 397 (1997) ........................... 26, 30, 31, 32

Cash v. County of Erie,

654 F.3d 324 (2d Cir. 2011), cert. denied,
565 U.S. 1259 (2012) ..................................... 22, 23

City of Canton v. Harris,

489 U.S. 378 (1989) ............................. 2, 19, 26, 27

City of San Francisco v. Sheehan,

135 S. Ct. 1765 (2015) ......................................... 25
Connick v. Thompson,
563 U.S. 51 (2011) ........................................... 2, 27

Estate of Jones by Jones v. City of Martinsburg,

961 F.3d 661 (4th Cir. 2020) ......................... 17, 18

Flores v. County of Los Angeles,

758 F.3d 1154 (9th Cir. 2014) ....................... 17, 18

Jenkins v. Bartlett,

487 F.3d 482 (7th Cir. 2007) ............................... 19

Lenard v. Argento,

699 F.2d 874 (7th Cir. 1983) .......................... 19-20

Monell v. Dep’t of Soc. Servs.,

436 U.S. 658 (1978) ..................................... passim

Parrish v. Ball,

594 F.3d 993 (8th Cir. 2010) ......................... 17, 18

Patrick v. Burget,

486 U.S. 94 (1988) ................................................. 4

v

Peña v. City of Rio Grande City,

879 F.3d 613 (5th Cir. 2018) ......................... 17, 18

Roach v. City of Evansville,

111 F.3d 544 (7th Cir. 1997) ............................... 19

Ruiz-Cortez v. City of Chicago,

931 F.3d 592 (7th Cir. 2019) ............................... 20

Schneider v. City of Grand Junction Police
Dep’t,

717 F.3d 760 (10th Cir. 2013) ....................... 17, 18

Sewell v. Town of Lake Hamilton,

117 F.3d 488 (11th Cir. 1997) ....................... 17, 18

State v. Christensen,

909 N.W.2d 210 (Wis. Ct. App. 2017) ................... 7

Taylor v. Riojas,

No. 1261, 2020 WL 6385693 (U.S. Nov. 2,
2020) .................................................................... 25

Waller v. City of Denver,

932 F.3d 1277 (10th Cir. 2019) ...................... 17-18

Constitutional Provisions
U.S. Const., amend. VIII ............................................. 8
U.S. Const., amend. XIV.............................................. 8
Statutes
Prison Rape Elimination Act of 2003 (PREA),
34 U.S.C. § 30301 et seq.............................. passim
34 U.S.C. § 30301(5) ............................................ 27
34 U.S.C. § 30301(6) ............................................ 27
34 U.S.C. § 30307(e)(2) ........................................ 25
42 U.S.C. § 1983................................................... 1, 2, 8
Wis. Stat. Ann. § 940.225(2)(h) ................................. 22

INTRODUCTION
Petitioner’s multipage question presented has
nothing to do with this case. Petitioner asks whether
a government can be held liable under 42 U.S.C.
§ 1983 for its failure to train an employee not to
commit a single, egregious constitutional violation the
illegality of which would have been obvious to any
reasonable individual. And every circuit, including the
Seventh, agrees that that fact pattern does not support
municipal liability. But that is not what happened
here.
Polk County was held liable here because
respondents proved at trial that the County was
deliberately indifferent to the risk of sexual assault
when it chose to tolerate guards in the county jail
treating female inmates as sexual objects and chose
not to adopt policies that would have empowered
others in the jail to report, detect, or stop a guard’s
multi-year series of hundreds of sexual assaults. As to
whether those decisions can support governmental
liability on a Section 1983 claim, there is no division
among the circuits either.
Stripped of its purported circuit split, the petition
essentially reduces to a request for error correction.
But there is no error to correct. The jury in this case
heard several days of live testimony, including from
the victims, the perpetrator, County policymakers, a
state corrections official, and a jail operations expert.
Those witnesses provided ample evidence to find the
County liable based on the choices it made—choices
that enabled a jailhouse guard to assault respondents
hundreds of times.

2
STATEMENT OF THE CASE
It has been clear for decades that a government
can be held liable for damages under 42 U.S.C. § 1983
when it is on “notice that its program will cause
constitutional violations” and those violations in fact
occur. Connick v. Thompson, 563 U.S. 51, 61 (2011)
(quoting City of Canton v. Harris, 489 U.S. 378, 395
(1989) (O’Connor, J., concurring in part and dissenting
in part)). Here, that is exactly what happened.
A. Factual background
1. Petitioner Polk County operates the Polk
County Jail, a small correctional facility in northern
Wisconsin. Pet. App. 3. The jail houses up to 160
inmates and employs approximately 27 correctional
officers. Id. The respondents, who are female, were
inmates in that jail intermittently from 2011 through
2014. Id. During that time, respondents were
repeatedly sexually assaulted by Darryl Christensen,
one of the guards at the jail.
Captain Scott Nargis ran the county jail and
served as the County’s policymaker with respect to
jailhouse operations. Pet. App. 5. Nargis knew that
there was a “high risk” that guards would engage in
improper sexual behavior with inmates. Tr. 23-24,
ECF No. 263. 1
Despite actual knowledge of this risk, the County
provided jail staff with “no training (in any sense of
the word)” on prevention or detection of sexual assault.
Pet. App. 9. Nargis testified that the jail’s field
Citations to the trial transcript appear in the form “Tr. xx,
ECF No. yyy,” where “xx” refers to the page number and “yyy”
refers to the Bloomberg electronic docket number.
1

3
training consisted of nothing more than new jailers
shadowing current officers for eight to ten weeks.
Tr. 58, ECF No. 263. Darryl Christensen, the
individual defendant in this case (who is not a
petitioner here), testified at trial that the jail’s field
training included no training on sexual assault
policies. Tr. 37, ECF No. 258.
The prison staff manual had one policy, C-202,
that forbade sexual jokes, sexual conversations, and
physical relationships with inmates. Nargis Decl. Exh.
B, at 5-6, ECF No. 55. The County nominally required
officers to read a policy from their manual daily and
sign a piece of paper as proof they did so. Pet. App. 910. However, Nargis admitted that he did not know
whether Policy C-202 was even included in the ninety
policies he selected as required readings. Tr. 72, ECF
No. 263. Christensen testified that, “most of the time”
he went “through the motions” of “signing without
reviewing anything.” Pet. App. 10. This failure went
undetected because Nargis relied on an honor system
alone for compliance. Tr. 57, ECF No. 258.
And whatever the policy on the books, the reality
within the Polk County Jail was quite different. For
example, correctional officers regularly engaged in
sexual commentary about female inmates in the jail,
which they referred to colloquially as “tier talk.” Pet.
App. 8; Tr. 53, ECF No. 263. Christensen repeatedly
made “lewd comments over the jail intercom about
female inmates’ attire.” Pet. App. 183. Nargis stated
that he overheard these comments. Id. 8. There is no
evidence that he ever reprimanded officers for these
open and frequent violations of Policy C-202. Instead,
Nargis admitted that “he too participated in tier talk.”
Id. When asked why, he stated that it was in “an effort

4
to be viewed as part of the group and a trusted leader
of the officers.” Id. 2
Unsurprisingly, this environment enabled sexual
misconduct. Early in 2012, shortly after the sexual
assaults at issue here had begun, detainees reported
seeing Polk County officer Allen Jorgenson touching
another female detainee inappropriately. The reports
were given to a female officer who in turn informed a
male supervising sergeant. See Schaefer Dep. 24, 1920, ECF No. 236. 3 This behavior was typical for
Jorgenson, who frequently made sexual comments
about inmates and co-workers and “leer[ed]” at the
female inmates. Id. 18. For example, he called
watching inmates in the shower a “nice show.” Pet.
App. 6. But the supervising sergeant downplayed
Jorgensen’s behavior as just “Allen being Allen.”
Schaefer Dep. 39, ECF No. 236.
The supervising sergeant admitted that he “was
not aware of a specific policy” on how to report sexual
assault. Schaefer Dep. 24, ECF No. 236. Nevertheless,
he emailed the information to Nargis. Id. 25.
Nargis learned of allegations that Jorgensen had
also ordered the inmate to show him her breasts. Tr.
2
The dissenting judges in the Seventh Circuit disputed the
sexual nature of tier talk. Pet. App. 50. Yet, the facts of this case
on appeal must be taken in the light most favorable to
respondents given the jury verdict in their favor. See Patrick v.
Burget, 486 U.S. 94, 98 n.3 (1988). During the discussion of tier
talk, Nargis admitted to hearing Christensen “make
inappropriate or sexual comments about females.” Tr. 53, ECF
No. 263. Neither the County nor Nargis himself ever disputed the
sexual nature of tier talk at trial.

These portions of the deposition of Sergeant Steven
Schaefer were provided to the jury at trial.
3

5
137, ECF No. 258. Nargis, however, took no
meaningful disciplinary action. Instead, while issuing
a written reprimand, Nargis reassured Jorgensen that
the groping would not affect his career because it was
not a “major deal” and he was a “good,” “go-to”
employee. Pet. App. 5. Jorgensen later resigned “after
an unrelated investigation regarding his female coworkers.” Id. 8.
Even in the face of the Jorgensen episode, Nargis
continued to dismiss the need to prevent and detect
sexual assault in the jail. The County made no changes
to jail policy, trainings, or resources. Nargis knew that
the Wisconsin Department of Corrections provides
materials to help local jails prevent and detect sexual
assault. Tr. 27, ECF No. 263. As an official from the
Wisconsin Department of Corrections testified, these
materials focused on informing inmates about their
rights in jail and on providing secure sexual assault
reporting options, as well as informing and training
correctional officers how to detect sexual assaults
committed by others and recognize the signs of
victimization. See id. 77-80. The materials were
repeatedly offered to Polk County in a variety of
formats, including in live training that Nargis
ostensibly attended. See id. Although Nargis was
aware of these materials, id. 27, he apparently did not
request them, id. 82.
Only in 2014 (three years after the assaults at
issue here had begun and two years after the County
had learned of Jorgensen’s sexual misconduct) did the
Polk County Jail conduct even a single staff meeting
to discuss the standards for dealing with sexual
assault in a correctional setting. See Tr. 29, 31, ECF
No. 263. These standards had been promulgated in

6
2012 under the Prison Rape Elimination Act of 2003
(PREA), now codified at 34 U.S.C. § 30301 et seq.
Nargis acknowledged that he had earlier
“revise[d] section C-202 to include the word PREA” in
its title. See Tr. 25, ECF No. 263. At the single PREAfocused meeting, however, Nargis touched only on the
“basics,” which he construed to mean “[d]o not
allow/condone
inappropriate
contact
between
inmates”;
“[d]o
not
allow/condone/engage
inappropriate contact between staff & inmates,” and
report any concern “to me,” meaning Nargis. Id. 33. He
gave these brief oral remarks without providing any
additional materials. Id. 31. The next day, Nargis sent
a staff-wide email stating that the meeting had been
the result of a “tizzy,” in which jail administrators
across the state had felt compelled to spend time on
PREA-related training—in his view, “time and
attention that seemed to be misplaced.” Pet. App. 11.
2. Darryl Christensen was a guard at Polk County
Jail for nineteen years. Pet. App. 3. From 2011 to 2014,
he repeatedly sexually assaulted several inmates at
the jail, including both respondents in this case.
Christensen employed a similar method for abusing
his victims. First, Christensen commented on their
appearances and made sexual overtures. Id. He
progressed to physical contact by non-consensually
groping and kissing the respondents before digitally
penetrating them. Id. Finally, he would direct them to
perform oral sex on him and eventually coerce them
into having sexual intercourse. Id.
“J.K.J. could not pinpoint the total number of
times Christensen assaulted her” but, by way of
example, “during a two-month period in the summer
of 2012, he insisted on sexual contact every time he

7
was on duty.” Pet. App. 3. M.J.J. estimated that
Christensen digitally penetrated her and ordered her
to perform oral sex on him between twenty-five and
seventy-five times over a two-year period—every time
he had “free time” when he was on duty. Tr. 140-41,
ECF No. 262.
The sexual acts were completely nonconsensual.
Respondents felt compelled to submit due to
Christensen’s complete authority over them and
because they had no safe and confidential reporting
system. Tr. 62-64, 75-78, 139-40, 142, ECF No. 262. As
J.K.J. testified, she perceived Christensen as a man
“in a uniform with a badge that has authority to do
whatever he wants to me.” Id. 75.
Eventually, after years of abuse, a former Polk
County inmate who had been assaulted by
Christensen reported it—not to anyone at the Polk
County Jail, but to an investigator when she was
incarcerated in the Burnett County Jail. Exh. 511.
That investigator immediately reported the news to
the Polk County Sheriff. Tr. 10, ECF No. 262. The
Sheriff initiated a criminal investigation that revealed
Christensen’s assaults of respondents and others. Pet.
App. 4; Exh. 511. When investigators confronted
Christensen about his assaults, he resigned
immediately. Pet. App. 4. Christensen later pleaded
guilty to criminal charges involving five inmates,
including respondents here. He is currently serving a
30-year sentence. Id.; see also State v. Christensen,
909 N.W.2d 210 (Wis. Ct. App. 2017) (unpublished
table decision).

8
B. District court proceedings
1. Respondents brought suit in the U.S. District
Court for the Western District of Wisconsin against
both Christensen and the County. As is relevant here,
they raised claims under 42 U.S.C. § 1983, alleging
Eighth and Fourteenth Amendment violations. 4
Respondents’ constitutional claim against the
county alleged that the County acted with deliberate
indifference to the obvious risk of female inmates
being sexually assaulted by male guards. Pet. App. 23. Respondents claimed that the County’s deliberate
indifference—manifested in a failure to take sexual
assault reporting, detection, and prevention
seriously—caused their injuries. J.K.J. & M.J.J. C.A.
Br. 1-4.
The case proceeded to a five-day trial. Pet. App. 3.
The jury heard live testimony from a number of
witnesses, including Nargis, Christensen, both
respondents, and respondents’ jail operations expert
Jeffrey Eiser.
The evidence in front of the jury included the
County’s ostensible training program, which was
“completely silent on preventing and detecting the
sexual assault of female inmates.” Pet. App. 10.
“Beyond learning that training on sexual abuse was
nearly nonexistent,” the jury also heard “affirmative
evidence revealing the County’s dismissive attitude
about preventing and detecting it.” Id. 11. And it heard
Respondents also brought state law negligence claims
against the County. Pet. App. 3. In an order on several post-trial
motions, the district court set aside the jury’s verdict on the state
law claims, holding that the County was entitled to immunity. Id.
178-81. The state law claims are not relevant to the petition.
4

9
evidence about “tier talk” and about Nargis’s decision
not to discipline Jorgenson and to send the dismissive
email about PREA training.
The jury also heard Eiser testify about “the
inadequacy of Polk County’s policies and training.”
Pet. App. 11. In particular, Eiser testified that a
widely accepted standard for jails is to institute a
“zero-tolerance policy on sexual abuse and
harassment.” Id. 12. Eiser also testified about the
importance of ensuring that inmates understand what
counts as “sexual harassment or sexual abuse.” Tr. 21,
ECF No. 264. He explained that inmates may come
from backgrounds where they have been exposed or
subjected to abuse and might think such behavior is
not “abnormal” or prohibited. Id. They may not realize,
unless the jail takes the “responsibility” to inform
them, that they have the “right as an inmate to be free
of this.” Id. 22.
Eiser also explained how the County’s failures led
to respondents’ continued abuse. Eiser testified that a
small jail like Polk County’s would have been expected
to detect the sexual assaults at some point during the
three years of ongoing abuse had it trained officers and
inmates to recognize the behavioral signs of
victimization. Tr. 17-24, ECF No. 264. These signs
could include, “dramatic[] changes in [victims’]
behavior, in their appearance, [and] in their hygiene.”
Id. 20. Eiser explained this kind of training is
particularly effective in small jails like the County’s
because “you see the same inmates over again and so
you kind of know what’s normal” for any particular
inmate. Id. 21.
Eiser also highlighted the need to create
mechanisms
for
inmates
to
report
abuse

10
“confidentially without fear of retaliation.” Tr. 29, ECF
No. 264. Eiser testified that the general grievance
process at the jail—where inmates were required to
report issues directly to jail staff—“never works for
things as sensitive as sexual assault.” Id. 24. He
explained that the recommended standard for
reporting sexual abuse in correctional facilities is the
virtually cost-free option of providing a lockbox for
inmates to report to an office outside of the jail itself,
beyond the tightknit “chain of command.” Id. 22-24.
Respondents testified that they felt unsafe
reporting the assaults to jail staff because they felt the
jail staff “were all friends.” Tr. 105, ECF No. 262.
Indeed, M.J.J. did not even feel safe reporting the
assault to her probation officer because she knew that
the officer was dating Nargis. Id. 142.
2. The district court instructed the jury first to
determine whether Christensen had violated any of
respondents’ constitutional rights by sexually
assaulting them. It then instructed the jury that if it
found that either respondent had “proved her claim
against defendant Christensen,” it should “consider
separately whether Polk County is also liable.” Tr. 17,
ECF No. 259.
The court emphasized that “[t]he County is not
responsible simply because it employed Darryl
Christensen.” Tr. 17, ECF No. 259. It told the jury that
one precondition to any liability for the County was
that a “policy-making official or officials were
deliberately indifferent to the need for more or
different training, supervision, and/or adoption of
policies to avoid likely sexual assault of an inmate by
an officer.” Id. 18.

11
The district court told the jury, at Polk County’s
request, that it could “consider” evidence of local and
federal standards for correctional institutions in its
deliberations on the question of deliberate
indifference. Pet. App. 189 (citation omitted). But it
admonished the jurors that they were being asked to
decide “whether the County was deliberately
indifferent to plaintiffs’ constitutional rights, not
whether the County failed to comply with Wisconsin
regulations, PREA or any other set of standards.” Id.
And it reminded them that PREA standards “are not
mandatory for county jails, nor is the failure to comply
by itself a basis to find the County liable.” Id. 189-90.
Finally, the court directed the jury to decide
whether “Polk County’s failure to provide adequate
training, supervision, and/or adoption of policies
caused [respondents’] injuries.” Tr. 18, ECF No. 259.
3. The jury returned a verdict for respondents
against both Christensen and the County. Pet. App.
176. It awarded each respondent $2,000,000 in
compensatory damages, as well as an additional
$3,750,000 in punitive damages against Christensen
alone. Id. 5

5
The County twice insists that it has never sought to
“disturb” the damages that the jury awarded to the plaintiffs. Pet.
1, 7. Those statements are disingenuous at best: The County is
no doubt aware that its insurer succeeded in disclaiming its duty
to defend or to indemnify Christensen. See Opinion and Order at
13 (Nov. 28, 2016), ECF 108. Given that Christensen is now
serving a thirty-year sentence and is certainly judgment proof,
any remedy must come from petitioner or not at all. The County’s
feigned magnanimity is an empty gesture. Disturbing the jury’s
award of damages is precisely what its petition is designed to do.

12
In response to post-judgment motions, the court
explained, with respect to the claim against Polk
County, that the evidence of “a sexualized culture in
the jail” was probative “of the County’s awareness of a
substantial risk of harm.” Pet. App. 191. The court also
held that the evidence overall was sufficient for the
jury to find “that Nargis and others within the County
Jail administration had knowledge of the substantial
risks of sexual assaults of jailers on inmates, but acted
with deliberate indifference to the need for better
training, supervision and policies.” Id. 183. The court
also found sufficient evidentiary support for the jury
to find that “if the County had provided adequate
notice and training to correctional officers and
inmates on what constitutes sexual harassment and
abuse, and how to report it, plaintiffs may not have
been sexually assaulted and harassed.” Id.
C. Seventh Circuit proceedings
Both the County and Christensen appealed the
jury’s verdict. Pet. App. 111-12. A panel of the Seventh
Circuit affirmed the judgment against Christensen,
but on a divided vote reversed the judgment against
the County. Id.
After granting respondents’ petition for rehearing
en banc, the full Seventh Circuit affirmed the jury’s
verdicts against both Christensen and the County.
Pet. App. 2. The vote was 7-4 with respect to the
County’s liability. The majority opinion was written by
Judge Scudder, and joined by Chief Judge Wood, and
Judges Kanne, Rovner, Hamilton, Barrett, and St.
Eve.
The majority held that the jury could reasonably
have found that the risk of sexual assault in Polk

13
County Jail was “undeniable.” Pet. App. 27. “Risk that
started as obvious” in the confinement setting “was
fully on display (following the Jorgenson incident)
within an institution that scoffed at PREA, denigrated
female inmates, and devoted not a word of its policies
or a minute of any training session to concrete
measures to prevent, detect, and respond to sexual
assault.” Id. 31. “The jury stood on solid evidentiary
ground seeing the County’s dormancy as more than
oversight, but instead as deliberate inaction.” Id. The
court explained that the jury “easily could have found”
that the tier talk “bespoke volumes about” the jail’s
“denigrating culture” and “amounted to sexually
inappropriate banter—in a word, harassment.” Id. 27.
And the majority emphasized that “[i]t took no
imagination for the jury to see parallels between
Jorgenson’s escalating actions, cut short as they were,
and Christensen’s early abuse of J.K.J. and M.J.J.” Id.
28. “That Jorgenson’s grooming of [one inmate] did not
end with rape is no liability shield; it was good
fortune.” Id. The treatment of Jorgensen “confirm[ed]
the jail’s broken culture.” Id. 30.
“And with red lights flashing, Polk County chose
the one unavailable option—doing nothing.” Pet. App.
29. First, the court considered the evidence regarding
the County’s policy, holding that the jury had
sufficient evidence to find it “fell far short on
prevention and detection,” id. 19, and that “any
number of policy measures could have filled the gaps
at little or no cost to Polk County,” id. 20. By way of
example, the court highlighted the “County’s policy
deficiency” regarding “the need to detect sexual
abuse.” Id. A “safe and confidential reporting channel”
for such abuse is essential. Id. Yet, “[u]nder the

14
County’s policy, an inmate seeking to report abuse is
left to inform one of 27 employees in a small jail that
she suffered a sexual assault at the hands of his
coworker.” Id. The court held the jury had enough
evidence to find “that Polk County’s policy deficiency
affirmatively deterred the reporting and detection of
sexual abuse of female inmates.” Id.
Regarding the County’s presentation at trial of its
“training program,” the court held that the “bottom
line” was “plain: the jury could have found that Polk
County’s sexual abuse prevention program was
entirely lacking” and that the “jury could have tallied
these gaps as part of finding the conscious, deliberate
municipal inaction upon which to rest Monell
liability.” Pet. App. 21. The court highlighted that the
jury heard no evidence of Polk County “informing
guards of the inherent vulnerability the confinement
setting presents to female inmates, educating jailers
on the symptoms of an inmate suffering from the
trauma of abuse, requiring officers to report each
other’s misconduct, or taking any time to otherwise
instruct guards on matters of prevention and
detection.” Id.
The court then held that the evidence “paved
multiple roads for the jury to travel to find that Polk
County’s inaction” in response to the “glaring risk”
was the “moving force behind” respondents’ injuries.
Pet. App. 32-33. That “[t]he assaults did not end until
Christensen was reported” gave “rise to an eminently
reasonable inference that if the County had put in
place” any of the standard policies and training to
“detect sexual abuse, Christensen’s conduct would
have been exposed sooner.” Id. 33.

15
The en banc court also rejected the County’s
argument that it should not be held liable because
Christensen’s sexual abuse of the respondents was “so
patently wrong and so plainly prohibited by Wisconsin
law and the jail’s policy” that “no amount of training,
no policy, no monitoring—nothing, literally nothing—
could have prevented or detected what he did to J.K.J.
and M.J.J.” Pet. App. 34. “The County’s narrow
fixation on Christensen exposes its error.” Id. The
court explained that the County’s liability did not
“hinge on predictions about whether Christensen
would have brought himself to stop abusing J.K.J. and
M.J.J.” Id. (emphasis added). Rather, it rested on the
County’s failure to take any number of actions that
would “have resulted in another correctional officer,
an inmate, or even J.K.J. and M.J.J. taking some step
to stop Christensen’s sexual assaults.” Id. 34-35.
Four judges dissented with respect to the County’s
liability. Judge Easterbrook wrote a solo dissent. Pet.
App. 38-43. Judge Brennan wrote a dissent that
Judges Bauer and Sykes joined. Id. 44-110. The core of
each dissent’s disagreement with the majority was its
view that this case involved one “miscreant” guard and
that there was “no evidence that Christensen made
the decision to assault plaintiffs for any reason related
to inadequate training or policies.” Id. 88 (Brennan, J.,
dissenting); see id. 42 (Easterbrook, J., dissenting).
REASONS FOR DENYING THE WRIT
This case presents no issue that warrants this
Court’s intervention. With respect to the question
presented by the petition, the Seventh Circuit is
entirely aligned with other courts of appeals. They all
hold that a plaintiff cannot win a failure-to-train-the-

16
perpetrator claim by pointing to a single egregious
violation whose unconstitutionality would have been
obvious even without training.
But this case does not implicate that question. The
basis for liability here was not failure to train Darryl
Christensen, but rather several decisions to forgo
effective policies for ensuring that other individuals—
both officers and inmates—could report, detect, and
prevent ongoing sexual assaults within the county jail.
The question whether those decisions constitute
deliberate indifference or whether that indifference
enabled
Christensen
to
violate
repeatedly
respondents’ constitutional rights is entirely
factbound. Answering it would provide no guidance in
other situations. And in any event, the Seventh Circuit
was correct. There was sufficient evidence before the
jury to conclude both that Polk County was
deliberately indifferent and that its indifference was a
“moving force” behind the violations of respondents’
constitutional rights, Monell v. Dep’t of Soc. Servs.,
436 U.S. 658, 694 (1978).
I.

Petitioner’s purported split does not exist.

Polk County’s argument for certiorari rests on the
assertion that the decision below is inconsistent with
decisions from six other circuits. Pet. 22-26. The
County is wrong. Just like those circuits, the Seventh
Circuit has “repeatedly rejected efforts to use the
single-incident theory to fault a municipality for
failing to prevent an employee from committing
flagrant crimes.” Id. 22.
What is more, neither the jury nor the Seventh
Circuit imposed liability on that theory. The basis for
liability here was not a simple failure to train one

17
perpetrator not to commit one constitutional violation.
Rather, the basis for liability was Polk County’s
decision not to implement reporting and detection
policies directed at other actors, including both
employees and inmates, who could have stopped the
series of hundreds of constitutional violations years
earlier. And there is no disagreement among the
circuits on this issue either.
A. The Seventh Circuit’s position on failure-totrain-the-perpetrator claims involving a
“single incident” is identical to the position
taken by other circuits.
1. The seven principal cases cited in the petition’s
allegation of a circuit conflict all share two features:
(a) the plaintiff’s claim arose out of a single episode of
assault by a government employee; and (b) the
plaintiff argued that the government was liable for
that single assault due to its failure to train the
perpetrator.
Some of the cases involved a plaintiff subjected to
a single sexual assault. Parrish v. Ball, 594 F.3d 993,
996 (8th Cir. 2010) (discussed at Pet. 24); Flores v.
County of Los Angeles, 758 F.3d 1154, 1156 (9th Cir.
2014) (discussed at Pet. 22-23); Schneider v. City of
Grand Junction Police Dep’t, 717 F.3d 760, 765 (10th
Cir. 2013) (discussed at Pet. 24-25); Sewell v. Town of
Lake Hamilton, 117 F.3d 488, 488-89 (11th Cir. 1997)
(discussed at Pet. 24). Others involved a plaintiff
subjected to a single non-sexual assault. Estate of
Jones by Jones v. City of Martinsburg, 961 F.3d 661,
663-64 (4th Cir. 2020) (discussed at Pet. 25); Peña v.
City of Rio Grande City, 879 F.3d 613, 616 (5th Cir.
2018) (discussed at Pet. 25); Waller v. City of Denver,

18
932 F.3d 1277, 1280-81 (10th Cir. 2019) (discussed at
Pet. 23).
In four of those cases, the courts of appeals
thought that failing to train the perpetrator neither
bespoke deliberate indifference to the plaintiff’s
constitutional rights nor caused the constitutional
violation. The courts of appeals explained that the
government was entitled to assume that, even in the
absence of any training, common sense and the penal
code would have deterred the perpetrator from
committing the “flagrant” constitutional violation at
issue. Pet. 23. This rationale explains the result in
Parrish, see 594 F.3d at 999, in Flores, see 758 F.3d at
1160-61, in Waller, see 932 F.3d at 1288, and in
Sewell, see 117 F.3d at 489-90.
In the other three cases, the courts of appeals
rejected the failure-to-train-the-perpetrator theory
because the government had in fact offered some
training to the perpetrator regarding the conduct at
issue. See Pet. 24-26. That training undercut the
plaintiff’s claim of deliberate indifference because no
prior episode had put the government on notice that
its training was inadequate. This analysis defeated
liability in Jones, see 961 F.3d at 672, in Peña, see 879
F.3d at 624, and in Schneider, see 717 F.3d at 774.
2. The Seventh Circuit’s caselaw is entirely in
accord. Like the Fourth, Fifth, Eighth, Ninth, Tenth,
and Eleventh Circuits, the Seventh Circuit also
forecloses liability where the plaintiff claims the
government failed to adequately train the perpetrator
of a single egregious constitutional violation. In fact,
the Seventh Circuit has rejected governmental
liability in both of the scenarios described above.

19
In cases involving a first instance of flagrant
illegality, the Seventh Circuit has long rejected singleincident failure-to-train claims even in the absence of
any training at all. In Roach v. City of Evansville, 111
F.3d 544 (7th Cir. 1997), for example, a police officer
extorted the plaintiff, demanding $100,000 in
exchange for hiding evidence seized in a search of the
plaintiff’s home. Id. at 546. The court held that “[n]o
rational jury could conclude” that the City “was
deliberately indifferent” to the risk that officers would
extort suspects “because the City failed to tell its police
officers to refrain from attempting extortion.” Id. at
550. The Seventh Circuit doubled down in Alexander
v. City of South Bend, 433 F.3d 550 (7th Cir. 2006),
where it held that, as a categorical matter, failing to
include a particular prohibition in a manual is not
enough to establish liability for failure to train the
perpetrator of a single incident. Id. at 557.
In a second set of cases, the Seventh Circuit has
rejected “single-incident claims” that “seek to hold a
municipality [liable] for blatantly criminal conduct
that it did train employees was prohibited,” Pet. 24. In
Jenkins v. Bartlett, 487 F.3d 482 (7th Cir. 2007), for
example, the Seventh Circuit rejected a failure-totrain claim in a case where a police officer fired into a
moving vehicle and killed a man. Milwaukee had
provided “training bulletins for approaching and
exercising deadly force on suspects in vehicles.” Id. at
487. The court rejected the plaintiff’s claim because,
even if the shooting at issue had been
unconstitutional, there was insufficient evidence that
“the need for further training” was “plainly obvious.”
Id. at 493 (quoting City of Canton v. Harris, 489 U.S.
378, 390 n.10 (1989)); see also Lenard v. Argento, 699

20
F.2d 874, 886 (7th Cir. 1983) (reaching same
conclusion with respect to “physical restraint of
prisoners”). Unless a municipality has prior reason to
know that its training was plainly inadequate, the
Seventh Circuit will not uphold Monell liability for a
single incident where the plaintiff brings a failure-totrain-the-perpetrator claim.
Simply put, all of the circuits are in accord with
respect to cases where the constitutional violation
involves a “single incident” whose unconstitutionality
is obvious and the plaintiff claims that the government
is liable for having failed to train the perpetrator. The
Seventh Circuit, like its sister circuits, does not hold
governments liable “for the actions of misfit
employees” alone. Ruiz-Cortez v. City of Chicago, 931
F.3d 592, 599 (7th Cir. 2019).
B. The decision here does not conflict with the
cases cited in the petition because the basis
for liability was not failure to train the
perpetrator.
1. This case involves a basis for governmental
liability that is entirely distinct from the singleincident, failure-to-train-the-perpetrator theory at
issue in the cases that the petition identifies. In all the
cases cited in the petition, the constitutional violation
at issue was the first and only occurrence. Of
necessity, plaintiffs injured in those circumstances
must argue that the government failed to train the
perpetrator because there is no basis for thinking that
other actors could have prevented the constitutional
violation. In particular, a reporting and detection
system could not have stopped the constitutional
violation—by definition, reporting and detection are

21
only possible after the first incident has already
occurred.
Here, Christensen assaulted both respondents
and other victims scores of times over the course of
several years. And from the outset, respondents have
argued that the County is liable not because it failed
to train Christensen, but because it chose to operate
its jail in a way that “caused and/or permitted the
continuation of Defendant Christensen’s sexual
misconduct.” J.K.J. 2d Amd. Compl. ¶¶ 81, 90, ECF
No. 41 (emphasis added); M.J.J. 2d Amd. Compl. ¶¶
71, 80, ECF No. 42 (same). Polk County’s fixation on
whether it adequately trained Christensen—see, e.g.,
Pet. 18, 26-27, 29—betrays its fundamental
mischaracterization of respondents’ case. Respondents
have been clear at every stage of the litigation that the
County’s failings went far beyond failing to train
Christensen and that it was those failings that
supported holding the County liable.
The en banc Seventh Circuit affirmed the jury’s
verdict on that basis. It held that the jury had “ample
evidence” of “Polk County’s policy failures” with
respect to implementing effective reporting, detection,
and prevention mechanisms. Pet. App. 25. It further
held that given the “obvious and known risk that its
male guards would sexually assault female inmates,”
the jury could conclude that the County’s policy
failures reflected deliberate indifference. Id. Finally, it
held that the jury had sufficient evidence to find that
Christensen’s conduct would have been exposed and
stopped “sooner” had the county not been deliberately
indifferent. Id. 33. None of those holdings involve a
“‘single-incident’ theory of Monell liability” for a
failure to train, Pet. i.

22
The petition’s purported split is thus based on
cases wholly irrelevant to the jury’s verdict here. The
case against the County is not—and has never been—
about whether some form of training would have
dissuaded Christensen from committing his assaults.
The verdict in this case was based on a much broader
constellation of “policy failures,” involving “prevention
and detection gaps” in the plural, Pet. App. 25.
2. There is no split among the circuits on whether
deliberate indifference can be established by the kind
of evidence presented in this case.
The petition cites only one other case where a
plaintiff advanced a claim for liability that resembles
respondents’: Cash v. County of Erie, 654 F.3d 324 (2d
Cir. 2011), cert. denied, 565 U.S. 1259 (2012)
(discussed at Pet. 30 n.3). And in that case, the Second
Circuit, just like the Seventh Circuit here, upheld a
jury verdict against a county.
Like respondents, the plaintiff in Cash did not
assert that the county was liable for failing to train the
perpetrator. Cash, 654 F.3d at 336. Polk County
indeed acknowledges this. Pet. 30 n.3. Instead, Cash
targeted a constellation of other acts and policies that
emboldened the perpetrator to sexually assault her.
Like the respondents here, Cash pointed to officials’
“token response” to lesser offenses in the past,
uncontradicted expert testimony showing the
inadequacy of the county’s existing policies, and the
common sense reality that jails present a high risk for
sexual assault (acknowledged by a New York statute
“which pronounces prisoners categorically incapable of
consenting to any sexual activity with guards,” similar
to Wisconsin’s, Wis. Stat. Ann. § 940.225(2)(h)). Cash,
654 F.3d at 334-39. In light of such a factual record,

23
the Second Circuit concluded—just as the Seventh
Circuit did here—that the jury reasonably found the
county liable for its failure to take any “proactive
steps.” Id. at 339.
Polk County had every incentive to find a case
that looks like respondents’ but comes out differently.
It is telling that it could not. There is no reason for this
Court to grant review.
II. This case is an inappropriate vehicle for
answering the question presented in the
petition.
The question presented in the petition is directed
at a “so-called ‘single-incident’ claim” involving a
“failure to train.” Pet i. Even if there were a conflict
among the courts of appeals on how to analyze such
claims—and there is not, see supra pp. 17-20—this
case would be the wrong vehicle for addressing that
question because it is not presented here. Moreover,
because the liability in this case was grounded on a
rarely occurring and unusual constellation of facts,
granting review would not provide the Court with an
opportunity to provide useful guidance for other
governmental liability cases. Granting certiorari here
to review the jury verdict would result in nothing more
than the kind of sufficiency-of-the-evidence review
this Court routinely declines to perform.
1. For much the same reason that this case does
not actually implicate the question the County
presents for review, this case would be a poor vehicle
for providing guidance on that question.
First, this case does not involve a “single
incident.” The classic single-incident case—like the
classic tragedy—involves a unity of time, place, and

24
action. This case, by contrast, involves hundreds of
constitutional violations against two individuals over
a three-year period. And during the same period, the
same guard was also victimizing at least three other
women. See supra p. 5. If this Court is inclined to give
more guidance on single-incident cases, it should wait
for a lawsuit that involves one.
Second, the County’s liability here does not rest on
a “failure to train” an “employee [who] committ[ed]
crimes.” Pet. i, ii. The County was not found liable
simply because it failed to train Christensen. The
failures here were far broader. They involved a
decision not to adopt reporting mechanisms for
inmates that could have stopped Christensen far
sooner, a decision not to train other employees to
detect the telltale signs of sexual abuse that could
have prompted a timely investigation, and a decision
to permit a sexualized atmosphere within the Polk
County Jail that produced express examples for the
jury of the County’s deliberate indifference.
In light of this framework, the evidence regarding
the failure to train Christensen was just one piece of
evidence reinforcing the conclusion that the County
was deliberately indifferent to the risk of sexual
assault. The failure to train Christensen was not the
linchpin on which liability turned.
If this Court thinks it is necessary to clarify the
preconditions for a failure-to-train claim, it should
await a case where that is the basis for liability. There
are plenty of cases raising that question. See, e.g., Pet.
22-25.

25
2. Nor does this case provide an opportunity to
provide guidance on any other important questions
regarding governmental liability.
The particular constellation of facts that led the
jury to find, and the Seventh Circuit to affirm, liability
here are uncommon. As respondents’ expert testified,
other small jails generally implement low-cost
techniques that detect and prevent precisely what
happened to respondents. See Tr. 23-24, ECF No. 264;
Eiser R. 5-7, ECF No. 84. And when it comes to statelevel correctional facilities, federal law requires
governors to certify their compliance with specific
policies for detecting and preventing sexual assault or
lose some of their federal funding. See 34 U.S.C.
§ 30307(e)(2). So there is no need for this Court’s
intervention to provide more detailed guidance on how
to assess when a county should be held responsible for
sexual assaults within its jail.
Without any reason to issue broad guidance to the
lower courts, this Court can do no more than
potentially review this unique case for error. This
Court often emphasizes it is “not, and for well over a
century [has] not been, a court of error correction.”
City of San Francisco v. Sheehan, 135 S. Ct. 1765,
1780 (2015) (Scalia, J., concurring in part and
dissenting in part). Furthermore, highly factbound
cases, where questions presented turn “entirely on an
interpretation of the record in one particular case,” are
a “quintessential example of the kind” of case that this
Court will “almost never review.” Taylor v. Riojas,
2020 WL 6385693, at *2 (U.S. Nov. 2, 2020) (No. 191261) (Alito, J., concurring in the judgment).

26
III. The Seventh Circuit’s decision is correct.
The Seventh Circuit was right: respondents
provided the jury with more than enough evidence to
find that the County should be held liable for the
sexual assaults against respondents that occurred in
its jail.
In Monell v. Department of Social Services, 436
U.S. 658 (1978), this Court held that a jury can hold a
government entity liable for a constitutional violation
when (1) the entity had some “policy or custom” (2)
that was “the moving force” behind the constitutional
violation complained of. Id. at 694-95. Sometimes, as
in Monell itself, that burden is met because an official
policy is itself unconstitutional and directly inflicts the
injury. (There, the city required pregnant employees
to take medically unnecessary unpaid leaves.) In
addition, this Court long ago recognized that liability
is appropriate when a government acts with
“deliberate indifference” to the “obvious” risk that its
“facially lawful” policies will cause constitutional
violations and that indifference “led directly” to the
“predictable” constitutional violation. Bryan County v.
Brown, 520 U.S. 397, 407, 409-10 (1997); see also City
of Canton v. Harris, 489 U.S. 378, 387 (1989).
This case is a paradigmatic example of the latter
form of liability. The jury found that Polk County was
deliberately indifferent to the risk that sexual assault
would go undetected and unreported, and the County’s
indifference meant that no one stopped the repeated
assaults endured by respondents. Those conclusions
are both firmly grounded in the extensive record
before the jury and fully consistent with this Court’s
jurisprudence.

27
A. The jury reasonably found that in the way
the County operated its jail, the County was
deliberately indifferent to respondents’
constitutional rights.
As the district court recognized, there are two
elements to proving deliberate indifference. First, the
plaintiff has to show that there was a “plainly obvious”
risk of harm. Tr. 19, ECF No. 259; accord City of
Canton v. Harris, 489 U.S. 378, 390 (1989). Second,
the plaintiff has to show that policymakers
“consciously disregarded this risk by failing to make
reasonable measures to deal with it.” Tr. 19, ECF No.
259; accord Connick v. Thompson, 563 U.S. 51, 62
(2011). In this case, the Seventh Circuit properly held
that the jury had a sufficient basis to find both of those
elements.
1. The Seventh Circuit correctly recognized that
the jury had ample evidence before it that the need for
a policy for detecting and preventing sexual assault
was “obvious” to Polk County’s policymaker, Captain
Scott Nargis. Not only is it “common sense” that
guards may assault inmates in a “tinderbox for sexual
abuse” like a jail, Pet. App. 26, but PREA “owes its
very existence” to the “obvious” “risks to female
inmates in the confinement setting,” id. 31. Years
before the assaults at issue here, Congress found that
correctional staff were often not “adequately trained
or prepared to prevent, report, or treat inmate sexual
assaults,” and “rape often goes unreported” in
correctional facilities. 34 U.S.C. §§ 30301(5)-(6). And
Nargis admitted at trial that he was fully aware of
that risk. Tr. 24, ECF No. 263.
Nor was the risk merely abstract. The County’s
belief that one of its guards, Allen Jorgenson, had

28
groped a female inmate gave it additional reason to
know that its existing policies were not enough to
prevent sexual abuse in its own jail. See Pet. App. 2632. Moreover, the ongoing sexualized “tier talk” about
inmates—talk of which Nargis was aware and in
which he intentionally participated—provided support
for the conclusion that the County enabled “a culture
that condoned the sexual objectification of the women
in its custody” and posed a risk that guards might feel
emboldened to treat the inmates as sexual objects and
use their power to commit sexual assault against
them. Id. 31.
Polk County tries to argue that not even the
combination of Nargis’s admitted knowledge of the
risk of jailhouse sexual assault, of a federal statute,
and of episodes and activities in its own jail is enough
to provide notice that a guard might sexually assault
an inmate. According to Polk County, all of that
evidence is outweighed by the fact that, to its
knowledge, no other guard had ever actually raped an
inmate before Christensen began his series of
assaults. See Pet. 9.
Polk County’s argument is as specious as it is
callous. As the Seventh Circuit explained, that
Jorgenson’s escalating molestation “did not end with
rape is no liability shield; it was good fortune.” Pet.
App. 28. Furthermore, Polk County’s argument
implies that because Christensen raped inmates and
Jorgenson “only” molested them, the County cannot be
held liable. That simply cannot be right. The
Jorgenson incident and ongoing tier talk “reinforced”
the already obvious: sexual assault happens in
confinement and was already happening in Polk
County Jail. Pet. App. 31.

29
2. Respondents also showed that county
policymakers consciously disregarded the obvious risk
of sexual assault. Contrary to the petition, the
disregard here involves the County’s “own” actions,
Pet. 29 (citation omitted).
Polk County had multiple opportunities to change
its sexual assault policies but declined to act each
time. The County could have used some of the
materials or adopted some of the recommendations
that Wisconsin offers all jails. It did not. Instead, it
requested none of those free training materials,
posters, and suggested policies. See Tr. 28-29, 36, 82,
121-22, ECF No. 263; see also Pet. App. 27, 31-36, 7780. It could have adopted any of the practices that
other jails frequently use, such as installing
anonymous reporting lockboxes or other confidential
reporting mechanisms. It did not. Instead, the County,
“with red lights flashing,” “chose the one unavailable
option—doing nothing.” Pet. App. 29. The County
could have disciplined Jorgenson and used that
discipline to communicate a zero-tolerance policy. It
did not. Instead, it let Jorgenson off with a slap on the
wrist and told him that touching a female inmate
sexually just was “not a big deal.” Pet. App. 30. And in
a staff-wide email, it ridiculed training on preventing
sexual assault and called implementing PREA a waste
of time. Tr. 32-34, ECF No. 263. That the County both
repeatedly downplayed the gravity of sexual assault
and repeatedly declined to change its policies and take
a stand on sexual assault is more than enough for a
jury to conclude that Polk County chose not to care.

30
B. The jury was entitled to find that the
County’s deliberate indifference caused
respondents’ injuries.
As this Court has explained, a government can be
held liable where a plaintiff’s injury was a “plainly
obvious consequence of” its decisions. Bryan County,
520 U.S. at 411. Here, the jury heard evidence that the
County did not teach guards or inmates how to spot
the signs of sexual assault, the County failed to create
a confidential reporting system, and a County
policymaker condoned a sexualized culture within its
jail. Unsurprisingly, unreported sexual assaults were
exactly what happened here. The Seventh Circuit
correctly held that respondents met their burden of
proving causation.
First, guards and other inmates could have been
trained to better recognize signs of abuse. As
respondents’ expert witness explained at trial, victims
of sexual assault often exhibit “dramatic[] changes in
their behavior, in their appearance, [and] in their
hygiene.” Tr. 20-21, ECF No. 264. These indicators are
all the more readily spotted in a small jail, where “you
see the same inmates over again and so you kind of
know what’s normal” for a particular inmate. Id. 21. It
was therefore perfectly reasonable for a jury to find
that proper training could have enabled others see the
tell-tale signs of abuse. Instead, the lack of training
enabled rape to go undetected. 6
Judge Easterbrook argued that this Court “sees knowledge
as the proper goal of training” and accuses respondents of
confusing a “want of compliance” for a “want of comprehension.”
Pet. App. 39-40 (emphasis omitted). But just as “a policy such as
6

31
Second, Polk County’s failure to create a
confidential reporting system necessarily prevented
the County from learning of sexual assaults and
thereby acting to prevent further violations. That the
County was in the dark therefore does not shield it
from liability. It is part of the evidence that supports
liability because of the County’s deliberate choices
ensuring that it would stay in the dark.
The way Christensen’s assaults came to light
reinforces the conclusion that Polk County’s policies
were a moving force behind respondents’ repeated
injuries. Christensen’s assaults were reported and as
a result, were stopped . . . but only after one of his
victims reported his conduct while she was
incarcerated in a different county’s jail where she felt
secure her complaint would be heard and acted upon.
Pet. App. 4; Exh. 511. Indeed, that other county did
promptly refer this information to the Polk County
sheriff, whose criminal investigation resulted in
Christensen’s immediate resignation. This chain of
events shows just how woefully inadequate the Polk
County Jail’s reporting system was. If any of
Christensen’s victims had felt empowered, while they
were in Polk County’s custody, to report Christensen,

‘comply with the Fourth Amendment’ is useless to non-lawyers,”
id. at 39, a policy such as “keep an eye out for rape” is useless to
untrained guards who do not know what to look for. Without
providing its guards any training on how to identify signs of
sexual assault, petitioner’s policies are little more than window
dressing because petitioner “fail[ed] to equip [its employees] with
specific tools to understand what the Constitution commands.”
Pet. 28 (quoting Bryan County v. Brown, 520 U.S. 397, 409
(1997)).

32
all of this could have happened years earlier, thereby
preventing countless assaults of the respondents.
Rather than address the jail’s systemic failures,
Polk County argues that Christensen’s malevolence
breaks the causal chain because there was simply
nothing it could have done to train him not to sexually
assault inmates. But the County overlooks the
obvious: others could have stopped Christensen.
Because the County failed to train its other employees
to spot signs of sexual abuse and failed to create a
confidential reporting system, respondents endured
three years of repeated rapes. There was more than
enough evidence for the jury to find here that the
County’s failure to stop a guard from assaulting
inmates hundreds of times was not because of a glitch
in the system. Instead, it was “the very consequence
that was so predictable.” Bryan County, 520 U.S. at
410. Polk County’s “narrow fixation on Christensen,”
Pet. App. 34, blinds it to the ways its deliberate
indifference enabled his crimes.
C. The Seventh Circuit’s decision does not
break new ground, open municipalities to
respondeat superior liability, or otherwise
disturb the balance between federal, state,
and local governments.
1. Eager to invoke the specter of federal overreach,
the County claims that denying review of this case
would open the floodgates to federal meddling by
imposing de facto respondeat superior liability. Pet.
31-34. Not so. The jury instructions here were
absolutely clear that the County could not be held
liable “simply because it employed Darryl
Christensen,” Tr. 17, ECF No. 259—that is, on a

33
theory of respondeat superior. Rather, the instructions
told the jury that it could hold the County liable only
if the respondents proved the harm was a result of the
County’s deliberate indifference. Id. 17-19.
The jury—and the Seventh Circuit—found the
County liable not because it employed a rapist, but
because the way it operated its jail manifested a
deliberate indifference toward sexual assault and that
deliberate indifference enabled a rapist to elude
detection for years. In other words, the jury did exactly
what this Court has authorized: it imposed liability on
the County because the County’s “own actions
violate[d] the Constitution,” Pet. 34.
2. The County also argues that the Seventh
Circuit’s decision constitutionally compels correctional
facilities “to adopt policies that neither Congress nor
state legislatures have seen fit to impose,” namely, the
federal Prison Rape Elimination Act (PREA). Pet. 3233. Wrong again. Neither respondents, the district
judge, nor the Seventh Circuit ever characterized
adoption of PREA as the only means by which Polk
County could comply with its constitutional
obligations. Respondents instead referred to PREA
simply to illustrate widely accepted, effective options
that are “very commonly” used by correctional
facilities. Tr. 23, ECF No. 264. Respondents
consistently argued in proceedings below that “[a] jail
would also be free to devise another method” other
than PREA standards in order to address sexual
assaults in jails. J.K.J. & M.J.J. C.A. Br. 10; see also
Tr. 22-24, ECF No. 264.
When this issue was presented to the jury, the
district judge took care to highlight that “the question
you are being asked to decide is whether the County

34
was
deliberately
indifferent
to
plaintiffs’
constitutional rights, not whether the County failed to
comply with Wisconsin regulations, PREA, or any
other set of standards.” Tr. 19-20, ECF No. 259. The
judge also admonished the jury that “the failure to
comply by itself with PREA” is not “a basis to find the
County liable.” Id. 20 (emphasis added). The County
never claimed that the jury was improperly instructed.
In fact, the County asked for this instruction in the
first place. Pet. App. 189-90.
Contrary to Polk County’s assertions, the Seventh
Circuit’s lopsided en banc decision merely affirms a
basic and limited principle that runs through this
Court’s Monell caselaw. Where a municipality is
confronted with the obvious risk that its failure to act
will result in its causing constitutional violations, the
municipality cannot do what Polk County did here:
“deliberately choose to stand still,” Pet. App. 29, and
let constitutional violations occur.

35
CONCLUSION
For the foregoing reasons, the petition for a writ
of certiorari should be denied.
Respectfully submitted,
Sarah Grady
Steve Art
Megan Pierce
LOEVY & LOEVY
311 N. Aberdeen Street,
3rd Floor
Chicago, IL 60607
Adam Francois Watkins
Stephanie Bradley
WATKINS BRADLEY LLP
228 Park Avenue South,
#14905
New York, NY 10003
December 9, 2020

Tom Weidner

Counsel of Record

Lida Bannink
ECKBERG LAMMERS, P.C.
1809 Northwestern
Avenue
Stillwater, MN 55082
(651) 351-2119
tweidner@
eckberglammers.com

